No. 19-312

 

In THE
Supreme Court of the United States

ALI EKHLASSI, PETITIONER

v.

NATIONAL LLOYDS INSURANCE COMPANY

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,333 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 20, 2019.

i

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
